                                              NATIONAL SCIENCE FOUNDATION
                                               OFFICE OF INSPECTOR GENERAL
                                                 OFFICE OF INVESTIGATIONS


                                 CLOSEOUT MEMORANDUM

11   Case Number: A05080060                                                             Page 1 of 1


         In August 2005, the complainant1 informed us he could not obtain survey data from a
         student organization because the subject,Z the founder of that organization, refused to allow
         the data to be released. NSF had funded a n annual conference for the organization for
         nearly 10 years. The conferences were hosted by different institutions and with different
         PIS each year. Because of the subject's initial involvement with the organization, the PIS
         deferred to her for much of the administration of the conferences, even though she had no
         formal role (she was not listed a s PI or co-PI). In particular, the subject contracted with a
         professional society3 for the collection and analysis of data from student participants at the
         conferences. It was this data the complainant requested.
         We coordinated with the Program Director (PD) who is currently handling this matter.4 The
         PD asked the subject to release the data, but she declined to do so. The PD then contacted
         the PIS since they are legally entitled to the data; in fact, they are required by the GC-1 to
         have it.5 The PIS agreed to release the data, but could not do so because only the subject
         and professional society were in possession of the data. The PIS requested the subject
         release the data, but she again declined to do so.
         Both the complainant and PD then requested the data directly from the professional society
         that collected and analyzed it. The professional society declined to do so because it had
         contracted directly with the subject and felt compelled to only release it to the subject, or
         with the permission of the subject.
         After these attempts failed, OIG asked the professional society to release the data,
         explaining that, legally, the PIS were entitled to it since the grant was through their
         institutions. The professional society sent a letter to the subject asking her to resolve the
         matter. The subject agreed to authorize the professional society to post the annual reports,
         with the associated data, on its website. The complainant agreed this was a reasonable
         resolution. Accordingly, this case is closed.
